<html>
<title> - H.R. 2982 and H.R. 3380</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 2982 and H.R. 3380
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 19, 2002

                               __________

                           Serial No. 107-96

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                           U.S. GOVERNMENT PRINTING OFFICE
78-261                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 19, 2002...................................     1

Statement of Members:
    Christensen, Hon. Donna M. a Delegate in Congress from the 
      Virgin Islands.............................................     4
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     3
        Prepared statement on H.R. 2982..........................     4
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey..............................................     5
    Jenkins, Hon. William, a Representative in Congress from the 
      State of Tennessee.........................................    31
        Prepared statement on H.R. 3380..........................    32
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, Press Release submitted for the 
      record.....................................................     7
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 2982 and H.R. 3380............     2
        News Release submitted for the record....................     8
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas...................................................     9
        Prepared statement on H.R. 2982..........................    10

Statement of Witnesses:
    Anderson, Lt. Colonel Ted, United States Army, Washington, 
      D.C........................................................    19
        Prepared statement on H.R. 2982..........................    20
    Ballard, Matt, General Manager, Sevier County Utility 
      District, Sevierville, Tennessee...........................    32
        Prepared statement on H.R. 3380..........................    33
    Beamer, Lisa, Cranbury, New Jersey...........................    13
        Prepared statement on H.R. 2982..........................    15
    Finley, Joe, Fire Department of New York, New York, New York.    11
        Prepared statement on H.R. 2982..........................    12
    Howell, Liz, Arlington, Virginia.............................    16
        Prepared statement on H.R. 2982..........................    17
    Smith, P. Daniel, Special Assistant to the Director, National 
      Park Service, U.S. Department of the Interior, Washington, 
      D.C........................................................
        Oral statement on H.R. 2982..............................    22
        Prepared statement on H.R. 2982..........................    25
        Oral statement on H.R. 3380..............................    36
        Prepared statement on H.R. 3380..........................    36

Additional materials supplied:
    Cogbill, John V., III, Chairman, National Capital Planning 
      Commission, Letter submitted for the record................    38


 LEGISLATIVE HEARING ON H.R. 2982, TO AUTHORIZE THE ESTABLISHMENT OF A 
MEMORIAL WITHIN THE AREA IN THE DISTRICT OF COLUMBIA REFERRED TO IN THE 
COMMEMORATIVE WORKS ACT AS ``AREA I'' OR ``AREA II'' TO THE VICTIMS OF 
 TERRORIST ATTACKS ON THE UNITED STATES, TO PROVIDE FOR THE DESIGN AND 
CONSTRUCTION OF SUCH A MEMORIAL, AND FOR OTHER PURPOSES; AND H.R. 3380, 
   TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO ISSUE RIGHT-OF-WAY 
 PERMITS FOR NATURAL GAS PIPELINES WITHIN THE BOUNDARY OF GREAT SMOKY 
                        MOUNTAINS NATIONAL PARK.

                              ----------                              


                        Tuesday, March 19, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in room 
1334, Longworth House Office Building, Hon. George Radanovich 
[Chairman of the Subcommittee] presiding.

      STATEMENT OF THE HONORABLE GEORGE P. RADANOVICH, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon and welcome to the hearing 
today. The Subcommittee will come to order. This afternoon, the 
Subcommittee on National Parks, Recreation and Public Lands 
will hear testimony on two bills, H.R. 2982 and H.R. 3380. The 
first bill, H.R. 2982, introduced by Congressman Jim Turner of 
Texas, would authorize the establishment of a memorial in the 
District of Columbia to the victims of terrorist attacks of the 
United States and to provide for the design and construction of 
such a memorial. It is my understanding that Congressman Turner 
envisions a living memorial that would continuously recognize 
any American who lost their life, either at home or abroad, to 
a terrorist act.
    Currently two units in the national park system memorialize 
Americans killed by acts of terror, the USS Arizona Memorial in 
Pearl Harbor, and the Oklahoma City National Memorial 
commemorating the 168 people killed when the Alfred P. Murrah 
Federal Building was bombed in April 1995. Recently our Nation 
has marked the 6-month anniversary of the September 11 tragedy, 
a new day of infamy, and it is certainly fitting that we are 
here today to begin an important and certainly emotional 
discussion on whether Congress should establish a national 
memorial located here in the Nation's Capitol to honor all the 
innocent victims of terrorism--past, present and, 
unfortunately, the future.
    Mr. Radanovich. More in contrast, is there a need and 
desire to establish multiple national memorials at locations 
across the country that have become victims of terrorism. For 
example, a Member of Congress from Pennsylvania recently 
introduced legislation to establish a national memorial in 
western Pennsylvania to honor the heroic actions of the 
passengers of Flight 93 who made the ultimate sacrifice and 
probably saved the lives of hundreds of Americans on Capitol 
Hill. In addition, efforts are underway by the city of New York 
to create a memorial at the site of the former World Trade 
Center. I look forward to hearing the thoughts from our 
witnesses on this issue.
    Our other bill, H.R. 3380, introduced by Congressman 
William Jenkins of Tennessee, would authorize the Secretary of 
the Interior to issue rights-of-way permits for natural gas 
pipelines within the boundary of the Great Smoky Mountains 
National Park, similar to that already issued to the Blue Ridge 
and Natchez Trace Parkways.
    It is my understanding that the National Park Service 
testified in support of similar legislation in the Senate. At 
this time, I would like to ask unanimous consent that 
Congressman Turner and Congressman Jenkins be permitted to sit 
on the dais following their statements. Without objection, so 
ordered.
    And I also ask that the 5-minute rule be waived and want to 
make sure that anybody with a camera is known they are welcome 
to be up in here within the well taking pictures during the 
course of the hearing. So with that, I appreciate Jim Turner, 
and Mr. Jenkins, and all the other witnesses here to testify 
today, and I now turn my time over to Chairman Hansen for an 
opening statement.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
on National Parks, Recreation, and Public Lands, on H.R. 2982 and H.R. 
                                  3380

    Good afternoon and welcome to the hearing today. The Subcommittee 
will come to order. This afternoon, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on two bills, H.R. 
2982 and H.R. 3380.
    The first bill, H.R. 2982, introduced by Congressman Jim Turner of 
Texas, would authorize the establishment of a memorial within the 
District of Columbia to the victims of terrorist attacks on the United 
States, and to provide for the design and construction of such a 
memorial. It is my understanding that Congressman Turner envisions a 
``living'' memorial that would continuously recognize any American who 
lost their life--either home or abroad--to a terrorist act. Currently, 
two units in the Park System memorialize Americans killed by acts of 
terror--The USS Arizona Memorial in Pearl Harbor, Hawaii, and the 
Oklahoma City National Memorial commemorating the 168 people killed 
when the Alfred P. Murrah Federal Building was bombed in April 1995.
    Recently, our Nation marked the six month anniversary of the 
September 11 tragedy--a new day of infamy. It is certainly fitting that 
we are here today to begin an important and certainly emotional 
discussion on whether Congress should establish a national memorial 
located here in the Nation's Capitol to honor all the innocent victims 
of terrorism--past, present and, unfortunately, future victims. Or, in 
contrast, is there a need and desire to establish multiple national 
memorials at locations across the country that have become victims of 
terrorism. For example, a Member of Congress from Pennsylvania recently 
introduced legislation to establish a national memorial in western 
Pennsylvania to honor the heroic actions of the passengers of Flight 93 
who made the ultimate sacrifice and probably saved the lives of 
hundreds of Americans on Capitol Hill. In addition, efforts are under 
way by the city of New York to create a memorial at the site of the 
former World trade Center. I certainly look forward to hearing the 
thoughts of our witnesses on this issue.
    Our other bill, H.R. 3380, introduced by Congressman William 
Jenkins of Tennessee, would authorize the Secretary of the interior to 
issue right-of-way permits for natural gas pipelines within the 
boundary of Great Smoky Mountains National Park similar to that already 
issued to the Blue Ridge and the Natchez Trace Parkways. It is my 
understanding the National Park Service testified in support of similar 
legislation in the Senate.
    At this time, I would like to ask unanimous consent that 
Congressman Turner and Congressman Jenkins be permitted to sit on the 
dais following their statements. Without objection, [PAUSE] so ordered.
    Once again, I appreciate Congressman Turner and Congressman Jenkins 
and all the other witnesses being here to testify today and I now turn 
the time over to the ranking member, Mrs. Christensen for an opening 
statement.
                                 ______
                                 

STATEMENT OF THE HONORABLE JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Hansen. Thank you, Mr. Chairman, and thanks for all you 
folks for being here today. This is a bill that my colleague 
from Texas, Mr. Turner, talked to me about it and we felt that 
this was really a good idea. The strength of these people is 
totally amazing in my mind. I see the four that are here today, 
the strength that they have, the will of the American people. 
One of the greatest tragedies that America has ever 
experienced.
    I guess a lot of us felt we were leading up to it and I 
think Mr. Turner wisely decided that this would be a memorial 
to all of those who have suffered from terrorism. You know, 
back when I was a Korean War veteran, the theory was that is 
the enemy. Second World War, we knew who the enemy was. We 
always knew the enemy. How do you get your arms around this 
one. And this is one that is going to be with us for a long 
time and I think it is extremely fitting. We were having lunch 
with the four here today. Joe Finley of New York made an 
interesting statement, he said, this won't come to closure and 
really it shouldn't, because if you look at it, this doesn't 
end. This is something we will remember forever and will be 
part of our history forever and it should be.
    Now we are privileged that these four folks would be here 
and I am amazed at the strength of everyone. I also look around 
America and I can't believe the strength of Americans at this 
time at how well they have handled this very big tragedy, how 
they have united together and how we have tried to drop 
partisan politics and say let us do what is right for this 
country.
    First and foremost, we are not Republicans, we are not 
Democrats. We are Americans. That is how we have to look at 
this thing and this is one of those bills that we can do it. 
Now at the press conference, some folks said we are a little 
worried about it. Can it be placed on the memorial? We are not 
going to get into the minutia. We think that can work out, and 
in my humble opinion, that will work out, and as long as I 
chair this Full Committee, we will push this bill and hopefully 
we can get the House of Lords to do something over there.
    They are having a little trouble of moving at a rapid clip, 
but maybe there is some way in the world we can get those guys 
to do something, and I think we can. Mr. Turner is a very 
persuasive individual, and the rest of us will be there to help 
him. And because I have not followed my script here, Mr. 
Chairman, I would ask that my entire testimony be placed in the 
record, OK.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                               Resources

    Thank you Mr. Radanovich. Today's hearing is very important for the 
American people. Each of us have been touched in some way by terrorist 
attacks against Americans, whether on foreign or domestic soil. We have 
the opportunity today to acknowledge the thousands of victims whose 
lives have been lost because of acts of terrorism in our nation's 
history, through a memorial in their honor. I appreciate my good 
friend, Mr. Turner from Texas, and his efforts to get the ball rolling 
on this important issue.
    H.R. 2982, which I co-sponsored, would authorize the establishment 
of a memorial to the victims of terrorist attacks on the United States 
and would provide for its design and construction. It would establish a 
living memorial to recognize any American that has lost their life to a 
terrorist act.
    A few days ago, we solemnly acknowledged the 6-month anniversary of 
the events of September 11th. We are privileged to have before the 
subcommittee today, survivors of this tragic ordeal. Included on the 
panel is Mrs. Elizabeth Howell, who works for our Committee. Liz lost 
her husband Brady in the Pentagon. This loss particularly brought this 
tragedy home for me. Also included is Mrs. Lisa Beamer, whose husband 
was a passenger on the hijacked flight that crashed in Pennsylvania; 
Joe Finley, a New York City fireman that lost most of his squad in the 
World Trade Center Collapse; and Lt. Colonel Ted Anderson who pulled 
several colleagues out of the Pentagon rubble. Thank you all for 
coming. I look forward to hearing your testimony. I also applaud and 
respect you for the strength and courage you have shown throughout 
these difficult times. Our hearts are with all of you, and go out to 
all the others who could not be here with us today.
    This memorial would also commemorate those who lost their lives in 
other terrorist attacks against American citizens in events such as the 
1983 bombing in Beirut, the 1988 bombing of Pan Am flight 103, and the 
attack of the U.S.S. Cole in Yemen.
    We can never completely repair the damage that has been done by 
terrorists that hate liberty and freedom. What we can do is honor the 
memory of our beloved lost and never forget what has happened. Last 
year's events brought us together as a nation, and showed the rest of 
the world what America stands for. This memorial is the next step. 
Let's do the right thing. Thank you, Mr. Radanovich.
                                 ______
                                 
    Mr. Radanovich. No objection.
    Mr. Hansen. I thank you.
    Mr. Radanovich. Thank you Mr. Chairman, I now recognize the 
Gentlelady from the Virgin Islands, Ms. Donna Christensen.

  STATEMENT OF THE HONORABLE DONNA CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses to the hearing today and thank them for 
their time and effort in helping us to gather information on 
the measures we have before us this afternoon in the 
Subcommittee, particularly H.R. 2982, a proposal to place a 
memorial on the National Mall or other National Park Service 
land in a prominent place in Washington, commemorating the 
events of September 11.
    Our goal must be to create a memorial that not only honors 
those whose lives were lost or changed by the terrorist 
attacks, but also to create a lasting memorial that will tell 
the full story for generations to come. And this is such an 
important memorial that I also hope that we will take every 
precaution to do this in the manner that was laid out by our 
colleague, Mr. Jim Turner, and avoid controversy so that we can 
move forward and have this memorial done. It is so important 
that we have this testimony to the lives, as I said, that were 
lost and changed on that day.
    Mr. Chair, you and I had an opportunity to meet and get to 
know Lisa Beamer, Colonel Ted Anderson, Firefighter Joe Finley 
and our own Liz Howell over lunch, and I was deeply moved and 
encouraged as I have been by their strength and dedication as 
exhibited since September 11. And since that day, I have been 
to many memorials, including the one at the White House last 
week, and we have been privileged to host New York firefighters 
in my district, but I still have the sense that I wanted to do 
something more, something meaningful and lasting.
    And today I want to thank my colleague, Jim Turner, our 
Chairman, Chairman Hansen, for giving me the opportunity to do 
that as Ranking Member--I am trying to take away your place 
here--as Ranking Member on the Subcommittee on Parks and Public 
Lands by holding this hearing and beginning the process of 
making this memorial a reality.
    The four individuals who are here today on this bill at a 
time of great challenge, and at one of the darkest hours in 
this country, for their courage and grace kept us strong, 
united and focused. And for that, we and all Americans indeed, 
the whole world will be forever grateful. And so we look 
forward to the insights from our witnesses regarding H.R. 2982 
as well as some of the other proposals that are going to be 
considered today.
    Our second bill would authorize the Secretary of the 
Interior to issue right-of-way permits for an existing natural 
gas pipeline as well as future natural gas pipelines that would 
cross or parallel three road segments that lead to the main 
body of Great Smoky Mountains National Park. Again, we must be 
careful in approving such activities and I would be very 
interested and look forward to learning from the Park Service 
what steps would be taken to ensure that these pipelines have 
no negative impact on park resources or visitor use.
    Thank you, Mr. Chairman, and I will have a little more than 
that in my testimony but I will submit that for the record.
    Mr. Radanovich. Thank you, Mrs. Christensen. And before I 
introduce Congressman Turner, are there any other opening 
statements wish to be made? Mr. Holt or Mr. Tancredo?

   STATEMENT OF THE HONORABLE RUSH HOLT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Holt. Mr. Chairman. I would like to commend our 
colleague, Mr. Turner, for sponsoring this legislation. There 
are many things that we have learned and still some things we 
have yet to learn from the events of last September 11. But one 
of the things we have learned is the need to recognize the 
sacrifices that have been thrust upon so many families in 
America. And we are reminded that these are things that we 
should have done before. There were a number of things that 
were brought to our attention that day that are reminders of 
things we should have done before. This memorial will recognize 
those who--the families that were forced--had sacrifices thrust 
on them years ago, and even those families who I shudder to say 
will have such things thrust on them in years to come. I am not 
quite sure what you call a memorial to things that haven't 
happened yet, but this is what this memorial will be, and it is 
certainly appropriate that you are doing this and I look 
forward to the testimony.
    I am particularly pleased to recognize Lisa Beamer here, 
who lives not far from where I live, and who has bore her 
personal grief with such dignity and poise in a way that has 
been helpful to, I think, millions of people around the 
country.
    So I am particularly pleased to see Lisa Beamer here today, 
but also Joe Finley and Liz Howell and Colonel Anderson. So I 
thank you Mr. Chairman for scheduling these hearings and I look 
forward to this memorial becoming a reality soon.
    Mr. Radanovich. Thank you, Mr. Holt.
    Any other opening statements before we turn to our 
witnesses? Mr. Kildee?

    [A press release submitted for the record by Delegate 
Norton follows:]
[GRAPHIC] [TIFF OMITTED] 78261.004

    [A press release submitted for the record by Mr. Radanovich 
follows:]
[GRAPHIC] [TIFF OMITTED] 78261.001

    Congressman Jim Turner, thank you very much for introducing 
this bill and welcome before the Subcommittee. And after your 
testimony any questions you are certainly more than welcome to 
join us on the dais. And with that, you may begin. H.R. 2982

  STATEMENT OF THE HONORABLE JIM TURNER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Turner. Thank you, Chairman Radanovich and Ranking 
Member Christensen, and members of the Committee, I appreciate 
your holding the hearing on this legislation that Chairman 
Hansen and I have joined together to sponsor to create this 
memorial to the victims of terrorism. I also want to thank the 
witnesses who have come today: Lisa Beamer, Liz Howell, Joe 
Finley, Lieutenant Colonel Ted Anderson, all of whom suffered 
great loss on September 11.
    Each of them have a story to tell that we all find very 
compelling and certainly highlights the significance of the 
memorial that is the subject of this legislation. We know that 
the events of September 11 marked the first attack carried out 
on American soil by foreign adversaries since Pearl Harbor, and 
it was the first attack on the mainland of the United States 
since the War of 1812. More Americans lost their lives on that 
day than on any day in American history since the battle of 
Antietam in the Civil War.
    Almost 3,000 died at the World Trade Center, including 343 
firefighters and 60 police officers; 189 died in the attack on 
the Pentagon and 45 died on United Flight 93 that crashed in 
Pennsylvania. On that fateful day many more would have lost 
their lives were it not for the selfless acts of courage 
carried out by many brave Americans, like Todd Beamer, whose 
widow is with us today, and Lieutenant Colonel Ted Anderson, 
who pulled survivors from the burning rubble of the Pentagon.
    Chairman Hansen and I believe, and I know you join me in 
the conviction, that America must never forget what happened on 
that day. America must forever remember those who died and 
those whose lives will never be the same. The loss, the 
suffering, the pain, the shattered dreams--all caused by evil 
terrorists on a clear September morning--left America a 
different place and ended an age of peace and personal security 
at home that we all long for.
    On September 11, our President, the Congress and the 
American people responded with one voice to declare war on 
terrorism. This great tragedy defined a war that did not begin 
on that day, nor can its end be predicted. We know that the 
great wars of the past have been fought with massive armies and 
conventional weapons; objectives were often defined in terms of 
defeating armies and taking control of land mass. But in the 
latter part of our 20th century, we began to be exposed to a 
new form of warfare fueled by technological progress in which 
developed societies became more vulnerable to attack and 
weapons accessible to terrorists became more lethal and 
effective.
    The rise of extremism rooted in religious fanaticism 
produced terrorists who willingly gave their lives for their 
cause and take the lives of innocent people without remorse. 
The great memorials that dot the landscape of our Nation's 
capital reflect the course of American history and are a 
constant reminder to all of us of our mutual commitment to 
freedom, justice and democracy. We see these shared values in 
our monuments to great leaders and we see them in our memorials 
to the soldiers who died in great wars fought in Europe, in the 
Pacific, in Korea and Vietnam.
    The war on terrorism, the first war of the 21st century, 
will not be marked by one geographic location. It is a global 
war that has been, is being, and will be fought at home and 
abroad. Though they have lost their lives in places far and 
near over a span of time that includes past, present and 
perhaps the future, the victims of terrorism, both civilian and 
military, deserve solemn tribute, for they died at the hands of 
the enemy of America because they were Americans.
    This memorial will honor those Americans whose lives have 
been lost to terrorism and will symbolize the great struggle in 
which we are now engaged. And some day this memorial will mark 
the time and the course of history when freedom and respect for 
the dignity of man overcame tyranny and hate and evil. Indeed, 
this memorial will stand for the age when America faced its 
greatest challenge, stood tall, persevered and protected peace, 
progress and civility for all mankind.
    Mr. Chairman, thank you for the opportunity to present this 
legislation to the Committee, and I thank Chairman Hansen for 
his sponsorship of this legislation with me. Thank you.
    [The prepared statement of Mr. Turner follows:]

  Statement of The Honorable Jim Turner, a Representative in Congress 
                 from the State of Texas, on H.R. 2982

    Mr. Chairman and members of the Committee, I would like to thank 
you for holding this hearing on H.R. 2982, legislation sponsored by 
Chairman Hansen and me along with 124 other cosponsors to create in our 
nation's capital a national memorial to all victims of terrorism 
against the United States.
    I would also like to thank Lisa Beamer, Liz Howell, Joe Finley, and 
Lieutenant Colonel Ted Anderson, all of whom suffered great loss on 
September 11th, for being with us today. Each of them will share with 
you a compelling personal story that highlights the significance of 
this memorial.
    The events of September 11th marked the first attack carried out on 
American soil by a foreign adversary since Pearl Harbor and the first 
attack on the mainland since the War of 1812. More Americans lost their 
lives on that day than on any day in American history since The Battle 
of Antietam in the Civil War.
    Almost three thousand died at the World Trade Center, including 343 
firefighters and 60 police officers. 189 died in the attack on the 
Pentagon. 45 died on United Flight 93 that crashed in Pennsylvania.
    On that fateful day many more would have lost their lives were it 
not for the selfless acts of courage carried out by many brave 
Americans like Todd Beamer, whose widow is with us today, and Lt. 
Colonel Ted Anderson, who pulled survivors from the burning rubble of 
the Pentagon.
    America must never forget what happened that day, and America must 
forever remember those who died and those whose lives will never be the 
same. The loss, the suffering, the pain, the shattered dreams--all 
caused by evil terrorists on a clear September morning--left America a 
different place and ended an age where peace and personal security at 
home was taken for granted.
    On September 11th, our President, the Congress, and the American 
people responded with one voice to declare war on terrorism. This great 
tragedy defined a war that did not begin on that day nor can its end be 
predicted.
    The great wars of the past have been fought with massive armies and 
with conventional weapons. Objectives were defined in terms of 
defeating armies and taking control of land masses. In the latter half 
of the 20th Century, we began to be exposed to a new form of warfare 
fueled by technological progress where developed societies became more 
vulnerable to attack and weapons accessible to terrorists became more 
lethal and effective. The rise of extremism rooted in religious 
fanaticism produced terrorists who willingly give their lives for their 
cause and take the lives of innocent people without remorse.
    The great memorials that dot the landscape of our nation's capital 
reflect the course of American history and are a constant reminder of 
our commitment to freedom, justice and democracy. We see these shared 
values in our monuments to great leaders, and we see them in our 
memorials to the soldiers who died in great wars fought in Europe, in 
the Pacific, in Korea, and in Vietnam.
    The war on terrorism--the first war of the 21st Century--will not 
be marked by one geographic location. It is a global war that has been, 
is being, and will be fought at home and abroad. Though they have lost 
their lives in places far and near over a span of time that includes 
the past, present and perhaps the future, the victims of terrorism, 
both civilian and military, deserve solemn tribute, for they died at 
the hands of the enemies of America because they were Americans.
    This memorial will honor those Americans whose lives have been lost 
to terrorism and will symbolize the great struggle in which we are now 
engaged. And some day this memorial will mark the time in the course of 
history when freedom and respect for the dignity of man overcame 
tyranny and hate and evil. Indeed, it will stand for the age when 
America faced its greatest challenge, stood tall, persevered and 
protected peace, progress and civility for all mankind.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Turner and I 
appreciate it and, again, you are more than welcome to join us 
on the dais as we call our next panel.
    Mr. Radanovich. Are there any questions by the way of Mr. 
Turner? Forgive me. I was a little out of order there. But I am 
sure we can ask him from up here. I do want to move to the next 
panel, since we have some panel members who are trying to catch 
flights. So I would like to welcome the next panel, first 
starting with Mr. Joe Finley, who is with the Fire Department 
of New York City, and who lost most of his squad in the World 
Trade Center collapse.
    Mr. Radanovich. Joe, it was a pleasure to meet you a little 
bit earlier and would invite you to begin your testimony if you 
like.

      STATEMENT OF JOE FINLEY, FIRE DEPARTMENT OF NEW YORK

    Mr. Finley. Mr. Chairman and members of the Committee, we 
must have a memorial dedicated to the victims of terrorism. 
They are important reasons, duty, honor, freedom. These things 
are at the core of every American. As a fire firefighter, I am 
bound by my oath of office to do my duty. It is a duty that I 
freely accept. I made a pledge that I swore to uphold. I have a 
duty to my fellow man, even at the risk of supreme sacrifice. I 
lost nine men from my fire house on September 11. They were 
among the 344 firefighters who gave their lives as heros 
putting themselves in harm's way to save their fellow man. They 
were also victims of terrorism. Prior to that tragic day, the 
greatest loss of firefighters in any one time in the entire 
United States occurred in 1966 when 12 firefighters died in 
what became known as the 23rd street fire in Manhattan. My 
father, Lieutenant John Finley, was one of them. I was 10 years 
old. We have all made a pledge to each other as Americans. 
Stated in one sentence, the Pledge of Allegiance to the Flag of 
the United States and to the republic for which it stands, one 
Nation, under God, indivisible, with liberty and justice for 
all.
    That simple pledge is why the terrorists attacked us on 
September 11. They despise our republic. They want us to 
abandon our freedom of religion, give up our liberty. They want 
us divided and scattered. They hate our justice and the 
inalienable rights endowed upon us by our Creator, life, 
liberty and the pursuit of happiness. It is our duty to educate 
the future generations of America so they can learn from our 
mistakes, so we will never let our guard down again. We must 
never forget. There is no closure. We must not forget our loved 
ones. We were attacked by fanatics who wanted to destroy all 
Americans. That doesn't matter what that cult of evil tried to 
steal from us on that terrible day. It is what we do with what 
is left that counts.
    They tried to steal our freedom, the very thing that makes 
America great. We cannot let that happen. We need to honor our 
dear ones. It is our sacred duty. They were murdered simply 
because they were Americans. They died for our freedom. Our 
ideals were attacked on 9/11. This memorial is for us as well. 
There but for the grace of God go I. The victims must be 
remembered in a dignified way with a memorial that honors their 
sacrifice for our freedom. People have been asking me what can 
we do to help? We want to feel connected. I witnessed something 
incredible on September 11. I was never prouder to be an 
American.
    All the politicians disappeared. And in their place stood 
statesmen. We proudly and defiantly displayed our American 
flags. They were everywhere. Our churches were filled. People 
volunteered in any way they could. In New York City and across 
the country, lines stretched onto the sidewalks with people 
waiting to give blood. Trucks were filled with supplies and 
driven toward New York City without being asked, without a 
final destination. They arrived and the volunteers asked where 
can we give this. Where will it do the most good. There have 
been volunteers at the site of the World Trade Center 24 hours 
a day, 7 days a week since September 11. They are there right 
now. We have been left with a great legacy, courage, faith, 
hope and love. There is a plaque for my father and each of the 
men our fire house lost in the line of duty since 1865. There 
are 15 of them. We are going to have to add nine more after 
September 11.
    I know how important it is that we never forget our loved 
ones, our heroes. We need to keep the legacy alive. It was left 
to us by all those who died at the hands of terrorists. It is 
our responsibility to foster that legacy, to nurture it and 
make sure that it is never forgotten. Thank you.
    Mr. Radanovich. Thank you, Mr. Finley, for your testimony, 
and I know that you are under tight time constraints to catch a 
flight back to New York. With that, I would ask if there are 
any questions from any particular member of the Committee? And 
if not, I want to thank you and please take your thanks to the 
firefighters and policemen of New York City when you return. 
Thank you.
    [The prepared statement of Mr. Finley follows:]

          Statement of Joe Finley, Fire Department of New York

    We must have a memorial dedicated to all the victims of terrorism. 
There are important reasons: duty...honor...freedom. These things are 
at the very core of every American.
    As a firefighter, I am bound by my oath of office to do my duty. I 
freely accepted that responsibility. I have made a pledge I swore to 
uphold. It is a duty I have to my fellowman, even at the risk of 
supreme sacrifice. We lost nine men from our firehouse September 11th. 
They were among the 343 firefighters who gave their lives as heroes, 
putting themselves in harms way to save their fellowman. They were also 
victims of terrorism.
    Prior to that tragic day the greatest loss of firefighters at any 
one time in the entire United States was in 1966...when 12 firemen lost 
their lives in the 23rd Street Fire in Manhattan. My father, Lieutenant 
John Finley, was one of them. I was 10 years old.
    We all have made a pledge to each other as Americans. It is stated 
in one sentence. I pledge allegiance to the flag of the United States 
of America, and to the republic for which it stands, one nation under 
God, indivisible with liberty and justice for all. That simple pledge 
is why the terrorists attacked us on September 11th. They despise our 
republic, they want us to abandon our freedom of religion, give up our 
liberty, they want us divided and scattered, they hate our justice and 
the inalienable rights endowed upon us by our Creator, life, liberty, 
and the pursuit of happiness. It is our duty to educate the future 
generations of American so that they can learn from our mistakes, so 
that we never let down our guard down again. We must never forget. 
There is no closure; we must not forget our loved ones.
    We were attacked by fanatics who want to destroy all Americans. It 
doesn't matter what that cult of evil stole from us that terrible day 
it's what we do with what is left that counts. They tried to steal our 
freedom, the very thing that makes America great. We can not let that 
happen. We need to honor our dear ones. It is our sacred duty. They 
were murdered simply because they were Americans. They died for our 
freedom. Our ideals were attacked on 9/11. This memorial is for us as 
well. There, but for the grace of God go I. The victims must be 
remembered in a dignified way with a memorial that honors their 
sacrifice for our freedom.
    People have been asking me, what can we do to help. They want to 
feel connected. I witnessed something incredible after 9/11. I was 
never prouder to be an American. All the politicians disappeared and in 
their place stood statesmen, people proudly and defiantly displayed 
their American flags, they were everywhere. Our churches were filled. 
People volunteered in any way they could. In New York City and across 
the country lines stretched out on to the sidewalks with people waiting 
to give blood. Trucks were filled with supplies and driven toward New 
York City, without being asked, without a final destination, they 
arrived and the volunteers asked where can we give this where it will 
do the most good. There are volunteers at the site of the Twin Towers 
right now and they have been there 24 hours a day 7 days a week since 
the attack. We have been left with a great legacy of courage, faith, 
hope, and love.
    There is a plaque for my father and each of the men our firehouse 
lost in the line of duty since 1865. There are 15 of them; we are going 
to have to add 9 more after September 11th. I know how important it is 
that we never forget our loved ones, our heroes. We need to keep the 
legacy alive. It was left to us by all those who died at the hands of 
terrorists. It is our responsibility to foster that legacy, and nurture 
it and make sure it is never forgotten.
                                 ______
                                 
    Mr. Radanovich. Next is Lisa Beamer who is the widow of 
Todd Beamer, passenger of Flight 93 that crashed in 
Pennsylvania, and of course was the passenger last heard saying 
``let's roll'' before attacking the hijackers. Lisa, welcome to 
the Committee, and I had a chance to meet Lisa's gorgeous 
little 10-week-old daughter Morgan, who is just a delight and 
we are very happy to be here, and I have had it in the back of 
my mind to thank you as representing those on Flight 93 for 
possibly saving the lives of some of the people in this room. 
Thank you, and thank you for being here and you are very 
welcome. And you may begin your testimony.

 STATEMENT OF LISA BEAMER, WIDOW OF TODD BEAMER, PASSENGER OF 
                           FLIGHT 93

    Ms. Beamer. Thank you. On September 11, 2001, our Nation 
suffered a great loss, a loss of life, a loss of property, a 
lot of security. My family also suffered a great loss, the loss 
of my husband and my children's father, Todd Beamer. He was 
traveling to California for an afternoon business meeting and 
was scheduled to come home on the red eye flight that very 
night. Instead, he became a victim of terrorism as his plane, 
United Airlines Flight 93, was hijacked and crashed into a 
field in Shanksville, Pennsylvania. Life for David, Andrew, 
Morgan and myself will never be the same.
    Every day I experience the pain of realizing my children 
will only know their wonderful father through pictures and 
stories. I struggle with the responsibility of raising three 
small children to adulthood by myself. I cry over the 
loneliness I feel of losing the companionship Todd and I shared 
over a decade, and I mourn the loss of the hopes and dreams we 
had for our family. There are 3,000 stories like mine, families 
with a gaping hole left because of the terrorism of September 
11. As we see pictures of Ground Zero, we need to remember that 
each family is dealing with their own Ground Zero, a vast 
emptiness where a strong presence once stood in our lives.
    The cleanup and rebuilding of our lives is tremendously 
hard work, and even done well will not bring back our loved 
one. We resolve to persevere through our grief for the sake of 
ourselves, our children and our Nation, but there is not one of 
us who wouldn't give anything to return to September 10 and to 
change the course of history. Though we can't go back in time, 
we can affect the future. It is imperative that our government, 
our corporations and citizens do everything possible to ensure 
that in a year, or 2, or 10, there aren't another 3,000 
families suffering as we are now.
    There are many actions our Nation can and must take to 
reduce our vulnerability to future acts of terrorism. But all 
this is possible only if we learn from the tragedy of September 
11. And in order to learn we must remember. We must remember 
the horrible events of the day. We must remember what led up to 
them. We must remember the names and stories of those we lost. 
And we must remember the suffering of those left behind.
    But as much as we need to remember September 11 to protect 
ourselves from future evil, we also need it to remember to 
prepare ourselves for future good. We saw unparalleled good in 
the heroes of all races, genders and occupations who went to 
work that day but never returned home. They are our new role 
models, not because of their athletic ability or their 
financial success, but because of their courageous action 
motivated only by selfless love for a stranger.
    I want my children to grow up in a safer America than we 
had on September 10. I also want them to become people who had 
made the same selfless choices as so many firefighters, 
policemen, rescue workers and ordinary citizens did on 
September 11. I want them to know that they too have the 
capacity to be people of such strong moral fiber and character 
that they would lay down their life for a friend.
    It is for these reasons that I strongly support the 
building of a national memorial to the victims of terrorism in 
Washington, D.C. The presence of such a memorial is crucial to 
keeping the events of September 11 in our Nation's 
consciousness for years to come. We must do this in order to 
prevent another such tragedy and to inspire our citizens to 
heroism to whatever events they face in their lives.
    As an eighth grade student at Copper Beech Middle School in 
Yorktown, New York, I took a trip with my class to Washington, 
D.C. as we completed our study of American history for the 
year. I remember visiting the Tomb of the Unknown Soldier and 
the Vietnam Memorial and witnessing at both venues a strange 
silence fell over myself and my classmates. We had read about 
the wars the United States was engaged in throughout the 20th 
century, but it was not until we were face to face with the 
reality of the individuals who had fought and made the ultimate 
sacrifice in these battles that we appreciated the cost of our 
safety and freedom of our Americans and developed any resolve 
to maintain it.
    It is my hope and expectation that the memorial to victims 
of terrorism will motivate current and future generations to 
always be vigilant in protecting us from evil and always be 
practicing for great acts of heroism. If these lessons of 
September 11 are learned and remembered, the death of our loved 
ones will not be in vain. Thank you.
    Mr. Radanovich. Thank you very much, Mrs. Beamer.
    [The prepared statement of Lisa Beamer follows:]

             Statement of Lisa Beamer, Cranbury, New Jersey

    On September 11, 2001 our nation suffered a great loss--a loss of 
life, a loss of property, a loss of security. My family also suffered a 
great loss--the loss of my husband and my children's father, Todd 
Beamer. He was traveling to California for an afternoon business 
meeting and was scheduled to come home on the redeye flight that very 
night. Instead, he become a victim of terrorism as his plane, United 
Airlines Flight 93, was hijacked and then crashed into a field in 
Shanksville, PA.
    Life for David, Andrew, Morgan and me will never be the same. Every 
day I experience the pain of realizing my children will only know their 
wonderful father through pictures and stories. I struggle with the 
responsibility of raising three small children to adulthood by myself. 
I cry over the loneliness I feel at losing the companionship which Todd 
and I shared for a decade. I mourn the loss of the hopes and dreams we 
had for our family.
    There are 3,000 stories like mine--families with a gaping hole left 
because of the terrorism of September 11th. As we see pictures of 
Ground Zero we need to remember that each family is dealing with their 
own Ground Zero. A vast emptiness where a strong presence once stood in 
their lives. The cleanup and rebuilding of our lives is tremendously 
hard work and even done well, will never return our loved ones to us. 
We resolve to persevere through our grief for the sake of ourselves, 
our children and our nation, but there is not one of us who wouldn't 
give up anything to return to September 10th and change the course of 
history.
    While we can't go back in time, we can affect the future. It is 
imperative that our government, our corporations and our citizens do 
everything possible to ensure that in a year or two or ten there aren't 
another 3,000 families suffering as we are. There are many actions our 
nation can and must take to reduce our vulnerability to future acts of 
terrorism.
    All of this is possible only if we learn from the tragedy of 
September 11th. But to learn we must remember. We must remember the 
horrible events of the day, we must remember what led up to them, we 
must remember the names and stories of those we lost, we must remember 
the suffering of those left behind.
    But as much as we need to remember September 11th to protect 
ourselves from future evil, we also need to remember it to prepare 
ourselves for future good. We saw unparalleled good in the heroes of 
all races, genders and occupations who went to work that day but never 
returned home. They are our new role models, not because of their 
athletic ability or financial success, but because of their courageous 
action motivated only by selfless love for a stranger.
    I want my children to grow up in a safer, smarter America than we 
had on September 10th. I also want them to become people who would make 
the same selfless choices as so many firefighters, policemen, rescue 
workers and ordinary citizens did on September 11th. I want them to 
know that they too have the capacity to be people of such strong moral 
fiber and character that they would lay down their life for a friend.
    It is for these reasons that I strongly support the building of a 
national Memorial to the Victims of Terrorism in Washington, DC. The 
presence of such a memorial is crucial to keeping the events of 
September 11th in our nation's consciousness for years to come. We must 
do this in order to prevent another such tragedy and to inspire our 
citizens to heroism in whatever events they face in life.
    As an 8th grade student at Copper Beech Middle School in Yorktown, 
NY I took a trip with my class to Washington, DC as we completed our 
study of American history for the year. I remember visiting the Tomb of 
the Unknown Soldier and the Vietnam Memorial and witnessing at both 
venues a strange silence come over my classmates and me. We had read 
about the wars the United States was engaged in throughout the 20th 
century but it was not until we were face to face with the reality of 
the individuals who had fought and made the ultimate sacrifice in these 
battles that we appreciated the cost of our safety and freedom as 
Americans and developed any resolve to maintain it.
    It is my hope and expectation that the Memorial to Victims of 
Terrorism will motivate current and future generations to always be 
vigilant in protecting us from evil and always be practicing for great 
acts of heroism. If these lessons of September 11th are learned and 
remembered, the deaths of our loved ones will not be in vain.
                                 ______
                                 
    Mr. Radanovich. We are going to go on to the testimony of 
every other member and then open the panel up for questions 
please. Next up is Mrs. Liz Howell, who is a member of the 
Resources family here on the Hill, a receptionist for the 
Committee on Resources, and whose husband, Brady, was killed in 
the Pentagon attack. Liz, our hearts go out to you and please 
begin your testimony.

STATEMENT OF LIZ HOWELL, RECEPTIONIST, COMMITTEE ON RESOURCES, 
               HUSBAND KILLED IN PENTAGON ATTACK

    Ms. Howell. I am honored to have this opportunity to 
express my support for the establishment of the national 
memorial to the victims of terrorist attacks. My husband and 
very best friend, Brady Howell, was killed in the Pentagon on 
September 11. His death has changed my life forever. We had 
moved to Washington, D.C. a year earlier to fulfill Brady's 
childhood dream of working at the Pentagon. He had just 
finished graduate school and was thrilled to have won a 
prestigious Presidential management internship that allowed him 
to work with Naval Intelligence at the Pentagon.
    When I met and married Brady 5 years ago, my lifelong 
dreams became intertwined with his dreams. Our future seemed 
bright and full of promise. On September 10, we stood on edge 
of realizing those dreams. On September 11, those dreams were 
shattered and my life has never been the same. My life was 
changed forever, and so have lives of thousands of other 
Americans who lost someone they loved in the four jetliners, in 
the World Trade Center or in the Pentagon. I think the American 
psyche also underwent a change.
    As a Nation, we felt vulnerable in a way that we hadn't 
felt since the attack on Pearl Harbor more than 60 years ago, 
but we also felt united, determined and proud to be Americans 
with a passion we hadn't felt in a very long time. Words that 
had almost disappeared from our collective vocabulary emerged. 
``Heroes'' is my favorite.
    Before September 11, I rarely heard the word ``heroes'' in 
a casual conversation. After September 11, talk of heroes was 
everywhere. Thousands of heroes died that day. Many died trying 
to save the lives of others. Thousands of other heroes risked 
their lives or gave unstintingly of themselves to ease the 
suffering of others. Todd Beamer was a hero. Brady Howell was a 
hero. Joe Finley and Ted Anderson are heroes. Patriotic songs 
were playing on the radio again. People wanted to join the 
military. We talked of finding the lessons in our grief and a 
renewed meaning in our lives.
    Suddenly we wanted something deeper and something more 
substantial in our role models. And this spring we have 
celebrated life with a fresh intensity. The babies born to the 
9/11 widows are a source of national delight and pride. I don't 
believe these changes are temporary. I think September 11 
changed a generation of Americans. Our national generosity and 
compassion continues. As we fight this new war against 
terrorism, the suffering continues. I believe all that America 
lost that day, all that we gain and all of the ways we have 
changed as a country should be commemorated in a national 
memorial to the victims of terrorism.
    Of course, this isn't just about September 11. Since 1979, 
more than 500 Americans have died in acts of terrorism 
including 168 people that were killed in the bombing of the 
Alfred P. Murrah Federal Building in Oklahoma City, and 259 
killed in the 1988 mid air bombing of Pan Am Flight 103. This 
memorial would be for them, too, just as it would be for 
Americans we may lose in future terrorist attacks as horrible 
as that possibility may be. One of the things I love about 
Washington, D.C. are the memorials. My favorite is the Vietnam 
Memorial.
    I was born after the Vietnam War ended. I heard about and I 
have read about the war, of course, but that war didn't touch 
me emotionally until the first time I saw that long wall. All 
of those names, one after another, for the length of the dark 
wall drove home to me the cost of that war. For the first time, 
I sensed the breadth of our Nation's lost. I sensed the 
unrealized dreams, talent and untapped potential that died with 
those thousands of young men and women. I could imagine the 
tragic heartbreak of the peoples whose lives would never be the 
same, just as my life and Lisa Beamer's life will never be the 
same. I cried the first time I saw that wall and I cry every 
time I see it. I believe a national monument to terrorism would 
become a hallowed place where the people of this generation to 
remember and grieve. Perhaps even more importantly, it would 
teach future generations about the heroism, sacrifice and 
patriotism that surrounded the deaths of people who died for 
simply being Americans.
    I want future generations to understand what America lost 
on September 11. I want them to understand how we rallied 
together and went forward and a more compassionate and united 
Nation. I want them to feel a little grief and a little pride 
over a tragedy that happened before they were born. This 
national memorial can do that, just like other memorials 
throughout this city--bring all of America's history alive for 
us. Thank you.
    Mr. Radanovich. Thank you very much.
    [The prepared statement of Liz Howell follows:]

     Statement of Liz Howell, Receptionist, Committee on Resources

    I am honored to have this opportunity to express my support for the 
establishment of a national memorial to the victims of terrorists' 
attacks.
    My husband and best friend, Brady Howell, was killed in the 
Pentagon on September 11th. His death changed my life forever.
    We had moved to Washington, D.C. a year earlier to fulfill Brady's 
childhood dream of working at the Pentagon. He had just finished 
graduate school and was thrilled to have won a prestigious Presidential 
Management Internship that allowed him to work with Naval Intelligence 
at the Pentagon.
    On September 10th, we stood on edge of realizing so many dreams we 
had woven together during our five years of marriage. On September 
11th, my life changed forever. So did the lives of thousands of 
Americans who lost someone they loved in those four jetliners, in the 
World Trade Center or in the Pentagon.
    I think the American psyche also underwent a sea change. As a 
nation, we felt vulnerable in a way we hadn't felt since the attack on 
Pearl Harbor more than 50 years ago. But we also felt united, 
determined and proud to be Americans with a passion we hadn't felt in a 
very long time.
    Words that had almost disappeared from our collective vocabulary 
emerged again. ``Heroes'' is my favorite. Before September 11th, I 
rarely heard the word ``hero'' in casual conversation.
    After September 11th, talk of heroes was everywhere. Thousands of 
heroes died that day. Many died trying to save the lives of others. 
Thousands of other heroes risked their lives or gave unstintingly of 
themselves to ease the suffering of others. Todd Beamer was a hero. 
Brady Howell was a hero. Joe Finley and Ted Anderson are heroes.
    Patriotic songs were playing on the radio again. People wanted to 
join the military. We talked of finding the lessons in our grief and a 
renewed meaning in our lives. Suddenly, we wanted something deeper and 
more substantial in our role models.
    And this spring, we have celebrated life with a fresh intensity. 
The babies born to widows of 9-11 are a source of national delight and 
pride.
    I don't believe these changes are temporary. I think Sept. 11th 
changed a generation of Americans. Our national generosity and 
compassion continues. As we fight this new war against terrorism, the 
suffering continues.
    I believe all that America lost that day, all that we gain and the 
ways we have changed as a country should be commemorated in a national 
memorial to the victims of terrorism.
    Of course, this isn't just about Sept. 11. Since 1979, more than 
500 Americans have died in acts of terrorism, including the 168 people 
killed in the bombing of the Alfred P. Murrah Federal Building in 
Oklahoma City and the 259 killed in the 1988 mid-air bombing of Pan Am 
Flight 103.
    This memorial would be for them, too. Just as it would be for the 
Americans we may lose in future acts of terrorism--as terrible as that 
possibility is.
    One of the things I love most about Washington, D.C. are the 
memorials. My favorite is the Vietnam Memorial.
    I was born after the Vietnam War ended. I've heard about and read 
about the war, of course. But that war didn't touch me emotionally 
until the first time I saw that long wall. All those names, one after 
another, for the length of that dark wall drove home to me the cost of 
that war. For the first time, I sensed the breadth of our nation's 
loss. I sensed the unrealized dreams, talent and potential that died 
with those thousands of young men and women. I could imagine the tragic 
heartbreak of the people whose lives would never be the same, just as 
my life and Lisa Beamer's life will never be the same.
    I cried the first time I saw that wall. I cry every time I see it.
    I believe a national monument to terrorism would become a hallowed 
place for the people of this generation to remember and grieve. Perhaps 
even more importantly, it will teach future generations about the 
heroism, sacrifice and patriotism that surrounded the deaths of people 
who died simply for being Americans.
    I want future generations to understand what America lost on 
September 11. I want them to understand how we rallied and went 
forward, a more compassionate and united nation. I want them to feel a 
little grief and a little pride over a tragedy that happened before 
they were born. This national memorial can do that just like memorials 
throughout this city bring all of America's history alive for us.
                                 ______
                                 
    Mr. Radanovich. Our next witness is Lieutenant Colonel Ted 
Anderson who is with the U.S. Army, liaison office and who was 
present at the Pentagon at the time of the attacks and who 
pulled many survivors from the burning rubble there at the 
Pentagon. Lieutenant Colonel, welcome, and you are very welcome 
at this time to give your testimony.

STATEMENT OF LIEUTENANT COLONEL TED ANDERSON, U.S. ARMY LIAISON 
                             OFFICE

    Colonel Anderson. Thank you, Mr. Chairman. I am honored to 
appear before the Committee today and testify with these 
distinguished Americans, three among many so closely tied to 
the events of 11 September. I am here today in uniform in my 
personal capacity. My views are my own and I do not represent 
the Department of the Army or the Department of Defense or the 
views of either agency. On 9/11, I was a soldier, very simply, 
was in a particular place at a particular time and given the 
privilege to do my duty along with many others. And what I 
contributed on the 11th of September is quite small compared to 
what our soldiers do every day around the world, are doing 
right now in Afghanistan, are doing now in guarding our 
Nation's airports, government buildings and civil facilities.
    Let me begin by saying that I am a very fortunate man. I 
have spent over 19 years in the United States Army assigned 
primarily to paratroop units around the world. In those nearly 
20 years of service, I have seen many things that have 
structured my world view and my personal view. But the events 
of 11 September here in Washington and in New York City and in 
Pennsylvania were for me, and I know for many others, life-
changing events. And I know that it is an immeasurable 
understatement. Since the 11th of September, I have again and 
again reviewed my life, my time in the Army and I consider the 
things that I have done and those things that I have left 
undone.
    So my testimony here today in favor of a monument to 
victims of terrorist attacks wherever and however it is built 
is something small that I can do to offer my support of what I 
believe is both right and necessary. In a very broad sense and 
unique way, our country and the world will remember 9/11 for a 
very, very long time. The obvious comparisons have been made to 
Pearl Harbor. It will be remembered for the thousands who were 
lost, for the multitudes more who have been directly touched by 
the horror of it all, their husbands, wives, mothers, fathers, 
sons, daughters, friends and colleagues. It will be remembered 
as well for the new bonds that have forged among the American 
people.
    Our public servants, government officials, firefighters, 
police officers, fire responders in every category, our 
citizens, those from every walk of life and undoubtedly 
representing every cultural heritage that composes the very 
fabric of our Nation and the members of our military. Because 
of that day, we are bound in a very intimate way that I do not 
think we have experienced before at any time. On 11 September 
represents, in several regards, a moment of awakening across 
this great land, even before that fateful day, our Nation has 
lost Americans to terrorist acts that have been precursors to 
the monument.
    The USS Cole comes to mind as well as the bombings of our 
embassies in Tanzania and Kenya and the first attempt to 
destroy the World Trade Center only 9 years before. But on 
September 11, our Nation was awakened to the stark reality of 
the subtle threat we have almost unwittingly faced and still 
face today. It has changed the way that we define our notions 
of defense of freedom. And as well, I know from my own 
experiences and from talking to many others close to me that 
once the smoke cleared and the fires were finally put out, when 
the weight of the day descended upon us and many of us realized 
the incredible nature of what had occurred very literally 
before our eyes, I know that many commitments were made that 
day. These were commitments of individuals to stop taking for 
granted this magnificent thing we call life and even this more 
magnificent thing we call liberty.
    There were commitments to start living differently, to make 
more concerted efforts, each to do what we can do to help one 
another or to simply be better people. And we cannot chance to 
lose this sense of national awakening, which is a note of 
celebration in the long song of sorrow. This war is different, 
I believe than any other questions of which this Nation has 
ever embarked.
    Fighting against an elusive enemy and a dedicated effort to 
overcome the terrorism that threatens every one of us wherever 
it hides around the globe. And this war demands that every 
citizen, whether here at home or abroad make a long-term 
commitment to victory. Now our Nation and its allies are 
engaged on the global war on terrorism, what we imagine will be 
a protracted effort to make our Nation, our allies and our 
interests safe from those who attempt to dissuade us from our 
noble purpose, and that is peace and liberty.
    And so our purpose here today is different than any other 
effort in my recollection to memorialize those who have been 
lost in defense of our Nation or in acts of war, because even 
while we are engaged in the conflict, we can choose now to 
memorialize those who have fallen as an example to the living 
who are committed to this war here and abroad. We can thereby 
acknowledge the sober reality of what we have undertaken that 
others may very well give their lives on behalf of this 
profound effort.
    So this is about a memorial to those who have fallen 
already, and it is about a physical symbol of our unified 
commitment to persevere, to prevail and to preserve the 
sanctity of our endeavor and freedom and peace for our own 
people and for those who will choose to join us.
    Mr. Chairman, I strongly support the construction of a 
national memorial to the victims of terrorism. How it is 
conceived and where it might be and when it takes form is less 
important than undertaking a firm commitment to keep the events 
of 11 September in the forefront of our Nation's consciousness 
to memorialize those who lost their lives on that day and to 
mark that day of turning of our national consciousness. Thank 
you, and I look forward to your questions.
    [The prepared statement of Colonel Anderson follows:]

    Statement of Lieutenant Colonel Ted Anderson, United States Army

    I am Lieutenant Colonel Ted Anderson. I am honored to appear before 
the Committee today, and testify with these other distinguished 
Americans, three among many, so closely tied to the events of 11 
September. I am here as a soldier in my personal capacity. My views are 
my own and I do not represent the Department of the Army or the 
Department of Defense or the views of either agency. On 11 September, I 
was a soldier who very simply was in a particular place at a particular 
time and given the privilege to do my duty, along with many others. And 
what I contributed on 11 September is quite small compared to what our 
soldiers do every day around the world--are doing now in Afghanistan, 
are doing now in guarding our nation's airports, government buildings, 
and civil facilities.
    Let me begin by saying that I am a very fortunate man. I have spent 
over nineteen years in the United States Army, assigned primarily to 
paratroop units around the world. In those nearly twenty years of 
service, I have seen many things that have structured my world view and 
my personal view. But the events of 11 September--here in Washington, 
in New York City, and in Pennsylvania ``- were for me, and I know for 
many others, life changing events. And I know that is an immeasurable 
understatement. Since 11 September, I have again and again reviewed my 
life, my time in the Army--I consider the things that I have done and 
those things that I have left undone. So, my testimony here today in 
favor of a monument to victims of terrorist attacks, wherever and 
however it is built, is something small that I can do to offer my 
support of what I believe is both right and necessary.
    In a very broad sense and unique way, our country and the world 
will remember 11 September for a very, very long time. The obvious 
comparisons have been made to Pearl Harbor. It will be remembered for 
the thousands who were lost, or those multitudes more who have been 
directly touched by the horror of it all--their husbands and wives, 
mothers and father, sons and daughter, and their friends and 
colleagues. But it will be remembered, as well, for the new bonds that 
have been forged among the American people: our public servants--
government officials, firefighters, policemen, first responders in 
every category; our citizens--those from every walk of life and 
undoubtedly representing every cultural heritage that composes the very 
fabric of our nation; and the members of our military. Because of that 
day, we are bound in a very intimate way that I do not think we have 
experienced before.
    And 11 September represents in several regards a moment of 
awakening across this great land. Even before 11 September, our nation 
lost Americans to terrorist acts that now seem precursors to the 
monumental tragedy of that day--the USS Cole comes to mind, as well as 
the bombings of our embassies in Tanzania and Kenya, and the first 
attempt to destroy the world trade center only nine years before. But 
on 11 September, our nation was awakened to the stark reality of the 
subtle threat we had almost unwittingly faced and still face today. It 
has changed the way that we define our notions of defense of freedom.
    And as well I know from my own experiences and from talking to many 
others close to me, that once the smoke cleared and the fires were 
finally put out, when the weight of that day descended upon us, and 
many of us realized the incredible nature of what had occurred very 
literally before our eyes, I know that many commitments were made that 
day. These were commitments of individuals to stop taking for granted 
this magnificent thing we call life, and this even more magnificent 
thing called liberty; they were commitments to start living 
differently, to make more concerted efforts each to do what we can to 
help one another, to simply to be better people. And we cannot chance 
to lose this sense of national awakening--which is a note of 
celebration in a long song of sorrow.
    This war is different, I believe, than any other quest on which our 
nation has ever embarked--fighting against an elusive enemy in a 
dedicated effort to overcome the terrorism that threatens us, wherever 
it hides, around the globe. And this war demands that every citizen--
whether here at home or abroad--make a long-term commitment to victory. 
Now, our nation and its allies are engaged in the global war on 
terrorism, what we imagine will be a protracted effort to make our 
nation, our allies, and our interests safe from those who would attempt 
to dissuade us from our noble purpose--peace and liberty.
    And so our purpose here today is different than any other effort in 
my recollection to memorialize those who have been lost in defense of 
our nation or in acts of war--different because even while we are 
engaged in the conflict, we can choose now to memorialize those who 
have fallen as an example to the living who are committed to this war 
here and abroad. We can thereby acknowledge the sober reality of what 
we have undertaken--that others may very well give their lives on the 
behalf of this profound effort.
    So, this is about a memorial to those who have fallen already, and 
it is about a physical symbol of our unified commitment to persevere, 
to prevail, and to preserve the sanctity of our endeavor in freedom and 
peace for our own people, and for those who would choose to join us.
    Mr. Chairman, I strongly support the construction of a national 
memorial to the victims of terrorism. How it is conceived, where it 
might be, and when it takes physical form is less important than 
undertaking a firm commitment to keep the events of 11 September in the 
forefront of our nation's consciousness, to memorialize those who lost 
their lives on that day, and to mark that day as turning of our 
national consciousness.
    Thank you, and I look forward to your questions.
                                 ______
                                 
    Mr. Radanovich. Thank you very much. Our next one to 
testify is P. Daniel, or Dan Smith, who is the Special 
Assistant to the Director of the National Park Service, and 
also former staffer of this Subcommittee. Mr. Smith, welcome 
and please begin your testimony.

 STATEMENT OF DANIEL SMITH, SPECIAL ASSISTANT TO THE DIRECTOR, 
                     NATIONAL PARK SERVICE

    Mr. Smith. Mr. Chairman, thank you for the opportunity to 
present the views of the Department of the Interior on H.R. 
2982, which would authorize the establishment of a memorial in 
the District of Columbia within the areas referred to in the 
Commemorative Works Act as area I or area II to the victims of 
the terrorist attacks on the United States, and to provide for 
the design and construction of such a memorial. The Department 
is deeply saddened by the tragedy our Nation experienced on 
September 11. Our country was attacked with deliberate and 
massive cruelty, and since that fateful day, our lives have 
been changed forever.
    Among the men and women we lost that day are those who 
began their day at a desk or an airport, who wore the uniform 
of the United States and died at their post, who defied their 
murderers and prevented the murder of others on the ground and 
who, as rescuers, ran to the sites to assist others. Like so 
many other families in America, we continue to mourn the loss 
of a member of our Interior family who was a victim of United 
Airlines Flight 93 which crashed in Shanksville, Pennsylvania, 
Richard Guadagno, a 17-year employee of the U.S. Fish and 
Wildlife Service and manager of the Humboldt Bay National 
Wildlife Refuge in California was among the heroes, the 
passengers of Flight 93, who we now believed sacrificed their 
lives to save others.
    The Department offers our deepest sympathy to all those who 
lost a friend or family member because of the attacks of 
September 11. We understand that the road to healing will be 
long, but we believe that through the strength and unity of 
this country, the American spirit lives on. Terrorism 
unfortunately is not new to this country. Anyone who was in 
Oklahoma City on April 19, 1995 when the Alfred P. Murrah was 
ruthlessly bombed, has felt terrorism hit too close to home. We 
lost 168 of our fellow Americans in that attack. As a personal 
note, Mr. Chairman, I traveled with the commissioner of the 
Public Buildings Service that day to Oklahoma City and 
experienced that day. For Americans abroad, the fear of 
becoming a victim of terrorism has been and continues to be a 
very real threat. It continues today as I appear before you. 
The Department understands the desire and motivation to pay 
tribute to these victims of the terrorist attacks through the 
establishment of a highly visible, accessible and appropriate 
memorial.
    We share the feeling that is present throughout our country 
that we need to find ways to provide permanent reminders of the 
immense suffering and the sorrow caused by these tragic events. 
H.R. 2982 would authorize the Secretary of the Interior to 
establish a memorial to victims of terrorism on land 
administered by the National Park Service in the District of 
Columbia. It would establish a seven-member commission to raise 
funds determine a location and select the design for the 
memorial to be completed within 1 year of enactment of this 
legislation. The bill also provides for the Secretary of the 
Interior and the National Capitol Memorial Commission to assist 
the Commission in its work.
    The Department has learned a great deal from its role as 
the Nation's keeper of our natural and historic treasures. We 
have the great privilege of preserving important patriotic 
symbols such as Independence Hall and the Statue of Liberty. We 
also have the responsibility of preserving battlefields and 
memorials places where visitors often come to mourn and reflect 
on the more difficult times in American history.
    Our experience working with these sites has taught us a few 
things that we would like to share with the Committee today. 
One of the precepts of the L'Enfant plan of the Nation's 
capital was the creation of public spaces for the commemoration 
of significant events and figures of the American experience. 
But in the case of enormous national tragedies, we have found 
that commemoration seems most appropriate at the site of the 
tragedy itself. No memorial designed for placement in 
Washington, D.C. could capture the emotion and awe of visitors 
to the USS Arizona Memorial lying where it sank in Pearl 
Harbor. The Oklahoma City National Memorial would not have 
nearly the power it has if it had been constructed anywhere 
else, but at the site of the Murrah Building.
    The memorial landscapes of Gettysburg or Antietam National 
battlefields still haunt visitors who contemplate what occurred 
there nearly 150 years ago today. Indeed, people from all over 
the world continue to be drawn to these hallowed grounds to 
reflect on the historical events that took place, or perhaps to 
pay their respects to those who lost their lives there. Last 
year approximately 1.5 million people traveled to the USS 
Arizona Memorial, and approximately half a million people 
visited the Oklahoma City National Memorial.
    The way people traditionally mourn victims of catastrophic 
events by visiting the site of the occurrence reflects an 
instinctive public choice of the appropriate location for a 
memorial. We have certainly seen that instinct in the way 
people continue to make pilgrimages to the World Trade Center 
in New York City. We believe that the most powerful and 
meaningful way to honor the victims of September 11 in the form 
of a permanent structure would be by constructing a memorial at 
the World Trade Center, at the Pentagon and in Shanksville, 
Pennsylvania.
    And Mr. Chairman, those efforts are underway. Legislation 
authorizing a memorial at the Pentagon, which of course is on 
military property has already been signed into law by President 
Bush. In New York City, the Sphere, a sculpture that survived 
the collapse of the World Trade Center Twin Towers and a 
temporary memorial, the Tribute in Light, were unveiled last 
week to commemorate the 6-month anniversary of the September 11 
tragedy.
    We understand that the redevelopment authority and the 
State of New York are discussing plans to rebuild the Office 
Space and establish a permanent memorial at the site. And there 
is at least one proposal that has been introduced in Congress 
for a national memorial to be at Shanksville, Pennsylvania, to 
honor the heroic Americans of United Airlines Flight 93. The 
Department stands ready to assist in these efforts in any way 
it can. The establishment of memorials in our Nation's capital 
is governed by the Commemorative Works Act of 1986, which was 
passed by Congress to address the lack of guidelines for the 
subject matter, siting and design of the memorials and the lack 
of a public process. Congress and the Department of Interior 
worked together to study the process, delineate 
responsibilities and define procedures.
    The process established by that Act ensures memorials in 
the Capitol are erected on the most appropriate sites in the 
Federal city and are of the caliber and design that is worthy 
of their historically significant subjects. Although this bill 
before the Committee today seems to be a work in progress where 
we are trying to really define what elements to address, one 
concern that the Interior Department has about H.R. 2982 is 
that it exempts this memorial from section 3(c) of the 
Commemorative Works Act, which prohibits the authorization of a 
memorial in the District of Columbia on land administered by 
the Department of Interior or the General Services 
Administration to an event, individual or group before the 25th 
anniversary of the event or the death of the individual or the 
death of the last surviving member of the group.
    This is a key provision based on the premise that 
succeeding generations provide a more objective viewpoint when 
evaluating the most appropriate way to honor historical events 
or individuals of historical significance. If the proposed 
memorial is intended to be focused on September 11, and I have 
heard comments here today that it seems to go way beyond that, 
the 25-year stipulation may be particularly relevant because 
the events of September 11 have led directly to the current 
military engagement in Afghanistan and other places in the 
world.
    As in the case of Pearl Harbor where our involvement in 
World War II ensued the complete story of September 11 and the 
events that precipitated, has yet to unfold. Therefore a 
national memorial to September 11 authorized 25 years from now 
might have a much different but no less poignant design and 
message from a memorial designed today.
    Mr. Chairman, we are also concerned that H.R. 2982 contains 
conflicting provisions that would need to be remedied before 
the legislation proceeds. On one hand the bill requires 
compliance with the Commemorative Works act except for section 
3(c) as noted above, and thus requires approvals of location 
and design of the memorial by the National Capital Planning 
Commission and the Commission of Fine Arts.
    This process also ensures opportunities for public 
participation. At the same time, H.R. 2982 gives the Victims of 
Terrorism Memorial Commission the authority to determine the 
location and design of the memorial. We would urge the 
Committee to make the legislation conform to the process 
established by the Commemorative Works Act, and some of the 
comments I heard today, Mr. Chairman, it seems that is the 
direction the bill is going in.
    H.R. 2982 also does not provide a reasonable timetable for 
action on the proposed memorial. Within 1 year of enactment of 
the legislation, the Victims of the Terrorism Memorial 
Commission would need to determine a location and final design 
for the memorial as well as raise funds. The average amount of 
time for site selection and design process for a major 
memorial, and especially for what this dynamic memorial would 
become in the capital is 4 to 6 years after authorizing 
legislation is enacted.
    And finally, Mr. Chairman, under this bill, the Secretary 
of Interior is responsible for establishing the memorial and 
thus must complete all tasks not specifically designated to the 
Commission, including the construction of the memorial. The 
Department is very concerned with this provision as it departs 
from the current practice in which Congress authorizes a 
specific commission or private organization to establish a 
memorial rather than the Secretary.
    Mr. Smith. In conclusion, Mr. Chairman, we urge the 
Committee to give serious thought to the issues we have 
outlined above. The families of victims of the September 11 
tragedy and all terrorist attacks deserve nothing less than our 
most thoughtful, careful and thorough deliberation of where and 
how to memorialize their loved ones.
    As you consider how you may want to proceed, I assure you 
the Department of the Interior will work with you, Members of 
the Committee, the Congress, to find a way to work on this 
legislation to successful conclusion.
    Mr. Chairman, that concludes my statement. I am accompanied 
today by John Parsons of the National Park Service, if you have 
detailed questions about the Commemorative Works Act. And we 
stand ready to answer any questions that you may have.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
  National Park Service, U.S. Department of the Interior, on H.R. 2982

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 2982, which would authorize the 
establishment of a memorial in the District of Columbia within the 
areas referred to in the Commemorative Works Act as ``Area I'' or 
``Area II'' to the victims of the terrorist attacks on the United 
States and to provide for the design and construction of such a 
memorial.
    The Department is deeply saddened by the tragedy our nation 
experienced on September 11. Our country was attacked with deliberate 
and massive cruelty and since that fateful day, our lives have been 
changed forever. Among the men and women we lost that day are those who 
began their day at a desk or an airport, who wore the uniform of the 
United States and died at their post, who defied their murderers and 
prevented the murder of others on the ground, and who, as rescuers, ran 
to the sites to assist others.
    Like so many families in America, we continue to mourn the loss of 
a member of our Interior family who was a victim of United Airlines 
Flight 93, which crashed in Shanksville, Pennsylvania. Richard 
Guadagno, a 17-year employee of the U.S. Fish and Wildlife Service and 
manager of the Humboldt Bay National Wildlife Refuge in California, was 
among the heroic passengers of Flight 93 who we now believe sacrificed 
their lives to save others. The Department offers our deepest sympathy 
to all those who lost a friend or family member because of the attacks 
on September 11. We understand that the road to healing will be long, 
but we believe that through the strength and unity of this country, the 
American spirit lives on.
    Terrorism, unfortunately, is not new to this country. Anyone who 
was in Oklahoma City on April 19, 1995, when the Alfred P. Murrah 
Federal Building was ruthlessly bombed, has felt terrorism hit too 
close to home. We lost 168 of our fellow Americans in that attack. For 
Americans abroad, the fear of becoming a victim of terrorism has been 
and continues to be a very real threat. On August 7, 1998, U.S. 
Embassies in Kenya and Tanzania were brutally attacked, killing a total 
of 368 people. On October 23, 1983, suicide truck-bombs attacked Marine 
barracks in Beirut, Lebanon, killing 242 Americans. And these have not 
been the only terrorist attacks that have been perpetrated against the 
United States and its citizens.
    The Department understands the desire and motivation to pay tribute 
to these victims of the terrorist attacks through the establishment of 
a highly visible, accessible, and appropriate memorial. We share the 
feeling that is present throughout our country that we need to find 
ways to provide permanent reminders of the immense suffering and the 
sorrow caused by these tragic events.
    H.R. 2982 would authorize the Secretary of the Interior to 
establish a memorial to victims of terrorism on land administered by 
the National Park Service in the District of Columbia. It would 
establish a seven-member commission to raise funds, determine a 
location, and select a design for the memorial, to be completed within 
one year of enactment of this legislation. The bill also provides for 
the Secretary of the Interior and the National Capital Memorial 
Commission to assist the commission in its work.
    The Department has learned a great deal from its role as the 
Nation's keeper of our natural and historic treasures. We have the 
great privilege of preserving important patriotic symbols, such as 
Independence Hall and the Statue of Liberty. We also have the 
responsibility of preserving battlefields and memorials, places where 
visitors often come to mourn and reflect on the more difficult times in 
American history. Our experience working with these sites has taught us 
a few things that we would like to share with the Committee today.
    One of the precepts of the L'Enfant Plan for the Nation's Capital 
was the creation of public spaces for the commemoration of significant 
events and figures of the American experience. But, in the case of 
enormous national tragedies, we have found that commemoration seems 
most appropriate at the site of the tragedy itself. No memorial 
designed for placement in Washington, D.C. could capture the emotion 
and awe of visitors to the USS Arizona Memorial, lying where it was 
sunk in Pearl Harbor. The Oklahoma City National Memorial would not 
have nearly the power it has if it had been constructed anywhere else 
but at the site of the Murrah Building. The memorial landscapes of 
Gettysburg or Antietam National Battlefields still haunt visitors who 
contemplate what occurred there nearly 150 years ago. Indeed, people 
from all over the world continue to be drawn to these hallowed grounds 
to reflect on the historical events that took place at the sites or, 
perhaps, to pay their respects to those who lost their lives there. 
Last year, approximately 1.5 million people traveled to the USS Arizona 
Memorial and approximately half a million people visited the Oklahoma 
City National Memorial.
    The way people traditionally mourn victims of catastrophic events 
by visiting the site of the occurrence reflects an instinctive public 
choice of the appropriate location for a memorial. We have certainly 
seen that instinct in the way people continue to make pilgrimages to 
the World Trade Center in New York City. We believe that the most 
powerful and meaningful way to honor the victims of September 11 in the 
form of a permanent structure would be by constructing a memorial at 
the World Trade Center, at the Pentagon and in Shanksville, 
Pennsylvania. And, efforts to do just that are under way. Legislation 
authorizing a memorial at the Pentagon which, of course, is on military 
property has already been signed into law by President Bush. In New 
York City, ``the sphere,'' a sculpture that survived the collapse of 
the World Trade Center's twin towers, and a temporary memorial, the 
Tribute in Light, were unveiled last week to commemorate the six-month 
anniversary of the September 11th tragedy. We understand that the 
Redevelopment Authority and the State of New York are discussing plans 
to rebuild the office space and establish a permanent memorial at the 
site. At least one proposal to establish a memorial at Shanksville, 
Pennsylvania to honor the heroic Americans of United Airlines Flight 93 
is being developed. The Department stands ready to assist in these 
efforts in any way it can.
    We also have learned that a more meaningful memorial can be 
designed when the subject of a memorial is focused and defined, as is 
the subject of virtually every memorial located in the Nation's 
Capital. Although H.R. 2982 was introduced in the wake of the September 
11 attacks, the only indication of the subject of the memorial is in 
the title, where it refers to ``victims of terrorist attacks on the 
United States,'' and in the name of the panel, the ``Victims of 
Terrorism Memorial Commission.'' The subject matter of this memorial 
could potentially include victims of every terrorist act throughout our 
nation's history, which would be a very difficult memorial to design.
    The establishment of memorials in our Nation's Capital is governed 
by the Commemorative Works Act of 1986, which was passed by Congress to 
address the lack of guidelines for the subject matter, siting, and 
design of memorials, and the lack of a public process. Congress and the 
Department worked together to study the process, delineate 
responsibilities and define procedures. The process established by the 
Act ensures memorials in the Capital are erected on the most 
appropriate sites in the Federal City and are of a caliber in design 
that is worthy of their historically significant subjects.
    One concern we have about H.R. 2982 is that it exempts this 
memorial from Section 3(c) of the Commemorative Works Act, which 
prohibits the authorization of a memorial in the District of Columbia 
on land administered by the Department of the Interior or the General 
Services Administration to an event, individual, or group before the 
25th anniversary of the event or the death of the individual or the 
death of the last surviving member of the group. This is a key 
provision based on the premise that succeeding generations provide a 
more objective viewpoint when evaluating the most appropriate way to 
honor historical events or individuals of historical significance.
    There have been several bills introduced in Congress for memorials 
in the Nation's Capital on land administered by the Department of the 
Interior or the General Services Administration that would have set 
aside this time period requirement. Notable among them were proposals 
for memorials to the victims of the Tianannmen Square massacre, the 
Gulf War, the Space Shuttle Challenger, and the Pan Am Flight 103 
terrorist attack (the Lockerbie Memorial). Congress chose not to pass 
any of these proposals. Only the Lockerbie Memorial was authorized, and 
it was authorized to be located on military property so as to avoid 
violating this provision of the Commemorative Works Act. The Space 
Shuttle Challenger Memorial and Gulf War Memorial were constructed on 
military property without a specific authorization from Congress.
    If the proposed memorial is intended to be focused on the September 
11 attacks, the 25-year stipulation may be particularly relevant 
because the events of September 11 have led directly to the current 
military engagement in Afghanistan. As in the case of Pearl Harbor, 
where our involvement in World War II ensued, the complete story of 
September 11 and the events it precipitated has yet to unfold. 
Therefore, a national memorial to September 11, authorized 25 years 
from now, might have a much different but no less poignant design and 
message from a memorial designed today.
    We are concerned that H.R. 2982 contains conflicting provisions 
that would need to be remedied before this legislation proceeds. On one 
hand, the bill requires compliance with the Commemorative Works Act, 
except for Section 3(c) as noted above, and thus, requires approvals of 
location and design of the memorial by the National Capital Planning 
Commission and the Commission of Fine Arts. This process also ensures 
opportunities for public participation. At the same time, H.R. 2982 
gives the Victims of Terrorism Memorial Commission the authority to 
determine the location and design of the memorial. We would urge the 
Committee to make the legislation conform to the process established by 
the Commemorative Works Act.
    H.R. 2982 also does not provide a reasonable timetable for action 
on the proposed memorial. Within one year of enactment of the 
legislation, the Victims of Terrorism Memorial Commission would need to 
determine a location and final design for the memorial as well as raise 
funds for these activities. The average amount of time for site 
selection and design process for a major memorial in the Capital is 4-6 
years after authorizing legislation is enacted.
    In addition, under this bill, the Secretary of the Interior is 
responsible for establishing the memorial and thus, must complete all 
tasks not specifically designated to the Commission, including the 
construction of the memorial. The Department is very concerned with 
this provision as it departs from the current practice in which 
Congress authorizes a specific commission or private organization to 
establish a memorial rather than the Secretary.
    In conclusion, we urge the committee to give serious thought to the 
issues we have outlined above. The families of victims of the September 
11 tragedy and all terrorist attacks deserve nothing less than our most 
thoughtful, careful, and thorough deliberation of where and how to 
memorialize their loved ones' horrific fate. As you consider how you 
may want to proceed, we will be ready to assist you in any way we can.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radonovich. Thank you, Mr. Smith. It seems to me that 
as the testimony unfolds, I am quite sure that there will be 
memorials in Shanksville, at the Pentagon, and at the World 
Trade Center depicting the attacks or memorializing, I should 
say, the attacks of September 11th.
    But as I understand this legislation, this is a memorial to 
not just the terrorist attacks of September 11th but also those 
terrorist attacks that occurred over the history of the United 
States on Americans, and those that were victimized by 
terrorism.
    So, you know, that information becomes evident as we are 
working through this thing. And I know, Mrs. Howell, you had 
alluded to the need for it here in D.C. But, Mrs. Beamer, if I 
could hear from you regarding your opinion of that. Of course, 
your husband died in Shanksville. And, again, I can foresee 
some memorialization of that area, you know. It will have to 
occur, I am sure.
    What is the significance, if I may ask you and also the 
Lieutenant Colonel, of a memorial here in Washington?
    Mrs. Beamer. Well, I think I pointed it to a little bit in 
my comments, that this is where people come from all over the 
world and all over our country to find out who we are, and how 
we got to be who we are, and where we plan to go from here.
    I have been to Shanksville a few times. It is not an area 
where many people will be able to go simply because of its 
locality. It is important, obviously, that there is something 
there for the future, especially for the families. But for the 
majority of our citizens and for the citizens of the world, the 
fact is they come to Washington D.C. to memorialize the events 
that have been an integral part of our history.
    And the other thing is that it is important to memorialize 
people at the site of this event, but many of the acts of 
terrorism, it is not a possible thing. Pan Am 103, places where 
we have lost Americans on foreign soil due to terrorism, we 
can't erect a memorial to them there. This is an important way 
to pull all of those events together and really make it be a 
wake-up call to people to say, we had a whole crescendo of 
events that was leading to September 11th and we are going to 
memorialize them all in one place and really feel the full 
impact of what the terrorism does and what we need to prevent 
for the future. And I think that one central location in 
Washington, D.C. will do that better than any place else.
    Mr. Radanovich. Thank you very much. Lieutenant Colonel, 
same idea. If there is one in Washington, being near to the 
Pentagon, what are your thoughts on that?
    Lieutenant Colonel Anderson. Sir, as I testified a moment 
ago, where it might be or how it is conceived is actually less 
important to me than in making sure that our commitment to a 
memorial stands in the forefront. I really don't have one 
opinion or another exactly where it should be, just that we 
stick to it and that we ensure that a monument of some sort is 
constructed for the national effort against the war on 
terrorism.
    Mr. Radanovich. Thank you very much. Mrs. Christensen.
    Mrs. Christensen. Well, I guess I would really just--I 
would associate myself with your answer to that question, 
Lieutenant Colonel Anderson. I think it is really critical that 
we have a memorial, and although there are several very valid 
questions that have been raised that we are going to have to 
grapple with as we move toward establishing a memorial.
    I understand what I have heard what the position is of the 
Department of Interior and we will work to see how we can get 
it done. But, in general, I do not like to--I don't want us to 
circumvent law to get it done. I think we all agree that a 
memorial, a fitting memorial, is needed. I agree with you. 
There ought to be one in Washington, D.C., because everyone 
won't be going to the other location. But it is just something 
that we have to grapple with.
    And I wanted to also just echo what our Chairman said 
earlier, that Todd and others, including co-pilot Leroy Homer, 
we really owe them a debt of gratitude, because that plane may 
have been headed here. And so the establishing of the memorial 
is also important to us and to all who are going to serve in 
Congress for years to come to remember the debt that we owe, 
not only to the people on that flight, but to all, you know, 
all of those who have died from terrorist acts.
    And I wanted for the record to also thank all of you on 
behalf of some families in my district. The family of Master 
Sergeant Maudeline White who died at the Pentagon. Firefighter 
William L. Henry, a New York firefighter, and Lawrence Able, 
who worked on the 101st floor of one of the towers who died on 
September 11th.
    The work that you are doing, your efforts will ensure that 
they--as well as all of the other people who died will not be 
forgotten. We are committed to making--to having a memorial 
here in Washington. I just want to do it the right way.
    Mr. Radanovich. Thank you very much, Mrs. Christensen. Mr. 
Tancredo, any questions?
    Mr. Tancredo. Just an observation, Mr. Chairman, especially 
for Mrs. Beamer and Mrs. Howell. I, on September 11th, I had a 
recollection of something else, another event that had happened 
that elicited almost the same reactions in me that I was 
feeling at that time. And I remembered April 20th, 1999, when a 
school in my direct was attacked essentially by two terrorists, 
two young men, Columbine High School. And I remember observing, 
looking at the television and having the same sort of 
incomprehensible feeling about it, and this could not be 
happening. And then things played out in a way that I just 
wanted to tell you about here.
    That is that as we worked through, as the community worked 
through the horrible nature of that event, of course, the 
question arose as to whether and what kind of a memorial would 
be placed at the school, and there was the same sort of 
decisions and little bit of not controversy but disagreement 
about the nature of it and where it would be and that sort of 
thing.
    But I just want you to know this, that regardless of--I 
mean, regardless of how this turns out, this particular piece 
of legislation, where the memorial is placed and when, that the 
reality is that out of every horrendous event, even as horrible 
as April 20th and September 11th, events of those 2 days, some 
equally magnificent things happen.
    And in my district, and with regard to that event, several 
incredible things occurred, not the least of which is that 
thousands, we are not sure, maybe hundreds of thousands of 
children have actually come to the Lord as a result of stories 
of people who had, like Cassie Brenaeu, one of the students 
there. I happen to think that that is a wonderful outcome.
    Likewise, millions of people around the world, not just in 
the United States, but certainly millions of people have been 
equally as inspired by the actions and the events of that day, 
the actions of your spouses and of the--like the gentleman at 
the table earlier, the fireman and so many others. And lives 
have inevitably changed in positive ways as a result of the 
horror of that day.
    So regardless of what happens here, all I want to tell you 
is that there is a memorial. It is in the hearts of perhaps 
hundreds of millions of people who look at you and look at the 
people who died that day and are inspired to become better 
people themselves. So that is the memorial that will last and 
the legacy of which will be far beyond what we can build here.
    But I just wanted you to know that this kind of argument 
that goes on, it is not the important part.
    Mr. Radanovich. Thank you, Mr. Tancredo. Mr. Holt, did you 
have any comments or questions?
    Mr. Holt. No questions, because the witnesses have 
addressed the points so eloquently. But I just wanted to make a 
comment. Mrs. Howell spoke about heroes. Todd Beamer's name has 
often been associated with the word hero. Americans have a long 
tradition of finding ordinary Americans who rise to the 
occasion at difficult times. And it seems to me that this 
memorial really is about heroes. America will always need 
heroes. We will never have a lesser need in the future than we 
have now. And I see this memorial as part of the education of 
future heroes and the education of everyone so that they can 
find those moments of heroism that is called for in their 
lives.
    And, again, I thank Mr. Turner and Mr. Hansen for bringing 
this bill forward. And I thank you, Mr. Chairman, for these 
hearings.
    Mr. Radanovich. Thank you, Mr. Holt.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank all of our witnesses for your testimony 
here today. It was truly moving to hear from each of you, and I 
think it renews our commitment to being sure that the events of 
September 11th and those who have lost their lives and whose 
lives have changed forever will not be forgotten.
    I want to reassure our witness from the National Park 
Service, Mr. Smith, that we certainly are not speaking--I feel 
confident on behalf of Chairman Hansen as well--that we will 
certainly work with you on the details that you raised issues 
about. In fact, our staff, our able staff, has already noted 
most of those issues in the bill, and we certainly want to 
construct it in a way that it complies with the existing laws 
requiring review of design and review of site location. Those 
are certainly something we want to respect in this legislation, 
certainly had really no intent not to do so.
    We also want to be sure--and we appreciate your suggestions 
from experience about timetables. We had already begun to note 
that we had put a little tight timeframe in that legislation in 
our interest in getting this memorial done, and that it perhaps 
will need more flexibility in terms of the time required to 
make the very careful decisions that should be made about what 
this memorial should be like, where it should be.
    I think Ms. Beamer stated it very eloquently when the 
Chairman asked her why we needed this memorial in Washington, 
because it does speak in a larger sense about who we are as 
Americans, and obviously it is impossible to choose one spot to 
reflect and memorialize the loss that has occurred to the 
American people from terrorist acts.
    I guess that is true with a lot of our memorials, World War 
II memorial that is planned. Korean Memorial, Vietnam Wall 
aren't built at the site of those battles, but are built in our 
Nation's capital because they reflect a significant part of our 
history. So I am confident that we need to have a national 
memorial to memorialize all who have lost their lives to 
terrorism and to express the struggle in which we are engaged 
and which some day we will be able to look back upon as we see 
that memorial as evidence that the American people persevered, 
prevailed and defeated the forces of evil and stood up for 
freedom and democracy and the dignity of man. But we want to 
work with the Department to be sure that we construct this 
legislation in a way that will be appropriate. And I fully 
respect the fact that there are groups who, as was evidenced 
over the site selection of the World War II Memorial, who 
jealously guard the Mall, who desire to have it uncluttered, 
and to have the open space preserved. And we certainly are 
sensitive to those who hold that point of view.
    But I think at the end of the day the people of this 
country would like to see this memorial in our Nation's capital 
at a suitable location. And we look forward to continuing to 
receive input from the Department as we put this bill in better 
shape for this Committee to act upon. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Turner. I want to extend my 
thanks to each and every member of the panel for being here and 
giving your testimony. And that concludes discussion on this 
bill. And again, God bless you and thank you very much. H.R. 
3380
    Mr. Radanovich. With that, I will call panel three, which 
will be the Honorable William Jenkins from District 1 of 
Tennessee, regarding H.R. 3380.
    Mr. Radanovich. Our next bill is H.R. 3380. It is a bill to 
authorize the Secretary of the Interior to issue rights-of-way 
permits for natural gas pipelines within the boundary of the 
Great Smoky Mountains National Park. I want to welcome 
Congressman William Jenkins for being here. Please begin.

STATEMENT OF THE HONORABLE WILLIAM JENKINS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Jenkins. Thank you, Mr. Chairman. And thank you for 
holding this hearing. You have stated the purpose of H.R. 3380, 
and I would point out that such enabling statute has been 
passed for many of the other national parks. But, for some 
reason, and perhaps other witnesses can shed some light on it, 
this has never been done for the Great Smoky Mountains National 
Park.
    This legislation resulted from a request by the Sevier 
County Natural Gas Utility District to lay approximately 325 
feet of pipe across a roadway that goes into the national park 
to a private development. And there will be other facilities, 
we feel sure, within the park itself that will have need of 
these lines if the legislation is passed and if the Secretary 
can issue the permits.
    All of these lines will be underground. In most cases, they 
will be under a roadway, and the natural beauty of this great 
park will not in any way be disturbed. As the Members of this 
Committee know, the Great Smoky Mountains National Park is the 
most visited national park in the system.
    Because of that, there is substantial growth around this 
park and especially on the north side of the park. The Senate 
has already passed this legislation, exactly as we present it 
to this Committee today. And you are going to hear from Mr. 
Daniel Smith, who is the special assistant to the Secretary of 
Interior in support of this legislation. You are also going to 
hear from Mr. Matt Ballard, who is the general manager of the 
Sevier County Natural Gas Utility District, who will explain in 
more detail the need for the legislation.
    We will appreciate your favorable consideration, and I will 
certainly be glad to answer any question, and I am sure the 
other witnesses will, too.
    [The prepared statement of Mr. Jenkins follows:]

       Statement of The Honorable William L. ``Bill'' Jenkins, a 
         Representative in Congress from the State of Tennessee

    Mr. Chairman, I want to thank you for conducting this hearing on 
the legislation I introduced, H.R. 3380. This bill will authorize the 
Secretary of the Interior to issue right of way permits for natural gas 
pipelines within the Great Smoky Mountains National Park.
    Following my testimony you will hear from Matt Ballard, General 
Manager of the Sevier County Utility District, as well as P. Daniel 
Smith of the National Park Service explaining the need for this 
legislative action.
    Mr. Chairman and Members of the Committee, I want to take this 
opportunity to testify to the economic benefit these pipelines will 
bring to Sevier County, Tennessee. Sevier County serves as the gateway 
to the Great Smoky Mountains National Park which drew over 9 million 
visitors in 2001. It is the crown jewel of the National Park System. 
Because of the popularity of the Great Smoky Mountains, communities 
bordering the park have grown substantially and continue to do so. 
Along with this population growth comes the need for expanded utility 
service in the area. All parties agree that natural gas serves as a 
clean, efficient energy source and that construction and maintenance of 
this pipeline is consistent with good land stewardship policy.
    Mr. Chairman and Members of the Committee, in closing I am hopeful 
this bill will move quickly through the legislative process. The Senate 
has passed companion legislation and awaits House action. I am grateful 
for the opportunity to appear here today on this important legislation 
for Sevier County, Tennessee.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Jenkins. Any questions?
    Mrs. Christensen. I don't have any questions right now, Mr. 
Chairman.
    Mr. Radanovich. Thank you, Mr. Jenkins. You are more than 
welcome to join us on the dias as we open up panel two here.
    Mr. Jenkins. Thank you.
    Mr. Radanovich. I will now call forward panel two. Mr. 
Daniel Smith, of course, special assistant to the director of 
the National Park Service, and also, Mr. Matt Ballard, who is 
the general manager of Sevier County Utility District in 
Sevierville, Tennessee, regarding this bill.
    Yes, welcome. And, Mr. Ballard, you may begin.

   STATEMENT OF MATT BALLARD, GENERAL MANAGER, SEVIER COUNTY 
            UTILITY DISTRICT, SEVIERVILLE, TENNESSEE

    Mr. Ballard. Thank you, Mr. Chairman. And, again, thank you 
for having this hearing today on this legislation.
    This bill came about due to the fact that the Great Smoky 
Mountains National Park does not have enabling legislation that 
would allow park or Department of Interior officials to approve 
natural gas pipelines within the boundary of the park. It is my 
understanding, in talking to park officials, that other parks 
in the national park system have such enabling legislation.
    Sevier County Utility District presently has a distribution 
line constructed within the right of way of the road known as 
the Gatlinburg Spur, which is considered part of the Great 
Smoky Mountains National Park. This is the primary access into 
the Great Smoky Mountains National Park. It is a narrow 
corridor on either side of this roadway.
    A new 10-phase development came to us requesting natural 
gas. The park personnel reviewed this request for providing 
services to the development. This involved approximately 325 
feet of pipeline being installed across the right of way.
    Upon further review of the proposed project, however, it 
was determined that the park did not have this authorization. 
For this reason, this enabling legislation is being sought.
    In addition to this specific need, there are other park 
facilities located within the park proper which may have need 
of natural gas pipelines in the future.
    Specific request of this project is for the installation of 
a natural gasoline pipeline only. This does not involve any 
hazardous substance, chemicals or other environmentally harmful 
materials being introduced onto National Park property.
    The 325-foot project would involve little, if any, 
disruption, and would be either underground or under an 
existing bridge. The entire pipeline would be in the road right 
of way or under the pavement surface on an existing four-lane 
divided highway.
    Currently as it stands now, the pipeline runs south along 
this corridor. We would be expanding it laterally 325 feet to 
the northern corridor. Again, it is all under existing road 
right of way, and would not--we are going to try to bore this 
line, which will not have any cutting or disturbing any 
vegetation, inside the park.
    Again, I want to thank you for allowing us to be here today 
on this legislation.
    [The prepared statement of Mr. Ballard follows:]

   Statement of Matt Ballard, General Manager, Sevier County Utility 
                         District, on H.R. 3380

    H.R. 3380 is a bill to authorize the Secretary of the Interior to 
issue right-of-way permits for natural gas pipelines within the 
boundary of the Great Smoky Mountains National Park.
    My name is Matt Ballard and I'm here on behalf of Sevier County 
Utility District to speak in favor of the adoption of this bill. I'm 
currently on the Board of Directors for both the American Public Gas 
Association and Tennessee Gas Association. Besides being a board 
member, I also serve on the Operations Committee of the American Public 
Gas Association and the Education Steering Committee of the Tennessee 
Gas Association. I am also on the Board of Directors for the East 
Tennessee Small Customers Association.
    I have prepared a two-page document that is available to the 
members of the Subcommittee on National Parks, Recreation, and Public 
Lands, providing details of our position.
    This bill came about due to the fact that the Great Smoky Mountains 
National Park does not have enabling legislation that would allow Park 
or Department of Interior officials to approve allowing natural gas 
pipelines within the boundary of the Park. It is my understanding in 
talking to Park officials that other parks in the National Park system 
have such enabling legislation, however, Great Smoky Mountains National 
Park does not.
    Sevier County Utility District presently has a distribution line 
constructed within the right-of-way of the road known as the Gatlinburg 
Spur which is considered part of Great Smoky Mountains National Park. 
This is the primary access into the Great Smoky Mountains National Park 
and is a narrow corridor on either side of this roadway. A new ten-
phase development project is in the process of being completed just 
outside this corridor. This development would like to receive natural 
gas services from Sevier County Utility District. The Park personnel 
reviewed the request for providing service to this development. This 
involved an approximate 325-foot pipeline being installed across the 
right-of-way. Upon further review of the proposed project, however, it 
was determined that the Park did not have authorization. For this 
reason, this enabling legislation is being sought. In addition to this 
specific need, there are other Park facilities located within the Park 
proper which may have need of natural gas pipelines in the future.
    The specific request in this project is for the installation of a 
natural gas pipeline only. This does not involve any hazardous 
substance, chemicals or other environmentally harmful materials being 
introduced onto National Park property. The 325-foot project would 
involve little, if any, disruption and would be either underground or 
under an existing bridge. The entire pipeline would be in the road 
right-of-way or under the pavement surface on the existing four-lane 
divided highway.
    In addition to the approval of this project by National Park 
Service personnel, this project has been approved by the City of 
Gatlinburg administration, the ``Gateway Community'' to the Great Smoky 
Mountains National Park. No other permits or approvals are necessary 
from any other regulatory body other than the National Park Service.
    I have attached a map and drawing of the proposed construction.
                                 ______
                                 

    The map and drawing follow:]
    [GRAPHIC] [TIFF OMITTED] 78261.005
    
    Mr. Radanovich. Thank you, Mr. Ballard, for being here and 
testifying on this. Next, Mr. Smith, if you care to comment on 
this legislation.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
                DIRECTOR, NATIONAL PARK SERVICE

    Mr. Smith. Yes, Mr. Chairman.
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3380, which would 
provide legal authority to permit existing and future natural 
gas pipelines within a portion of the Great Smoky Mountains 
National Park near Gatlinburg, Tennessee.
    Mr. Chairman, I will submit my full statement for the 
record. But I would like the Committee to know that the 
Department is in full support of H.R. 3380. The legislation is 
identical to S. 1097, as amended and passed by the Senate on 
October 17th, 2001.
    It is an interesting issue that the Park Service does not 
have this authority, so we do need to get it from Congress in 
this case. Our understanding is that just as it has been laid 
out. It is an existing pipeline that--additional pipelines may 
be added immediately adjacent to it in the same corridor. And 
we have no objection to the bill. And with that, Mr. Chairman, 
I will conclude my remarks.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
  National Park Service, U.S. Department of the Interior, on H.R. 3380

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3380, which would provide 
legal authority to permit existing and future natural gas pipelines 
within a portion of Great Smoky Mountains National Park near 
Gatlinburg, Tennessee.
    The Department supports H.R. 3380. This legislation is identical to 
S. 1097 as amended and passed by the Senate on October 17, 2001.
    H.R. 3380 would provide authority for the continuing operation and 
maintenance of an existing gas main that runs through Great Smoky 
Mountains National Park that has been in place since the 1960's. And, 
it would allow the Secretary of the Interior to authorize construction 
of new gas lines, where otherwise appropriate, across several linear 
park lands managed by Great Smoky Mountains National Park. The areas 
where the new pipelines would be allowed are: the Foothills Parkway, 
which extends parallel to the north boundary of the park for 70 miles; 
the Foothills Parkway Spur, a four-mile-long park road (also U.S. 441) 
which connects the gateway communities of Pigeon Forge and Gatlinburg; 
and the Gatlinburg Bypass which links the Spur to the main body of the 
park. All three areas are linear lands that are managed as scenic 
transportation corridors. H.R. 3380 would not allow construction of 
natural gas lines across the main body of the park.
    The need for this legislation came to the attention of the National 
Park Service last year, when Great Smoky Mountains National Park 
received a request from Sevier County Utility District in Tennessee for 
permission to install a new natural gas pipeline across the park-owned 
Gatlinburg-Pigeon Forge Spur right-of-way (U.S. 441) in order to 
provide gas service to a new development in the city of Gatlinburg. 
Under 16 U.S.C. 79, the Secretary of the Interior may permit rights-of-
way through units of the National Park System for electrical, phone, 
water, sewer and some other utility services, but that general 
authority explicitly does not authorize installation of natural gas or 
petroleum product-bearing lines.
    Between the 1990 Census and the 2000 Census the population of 
Sevier County, Tennessee, which includes Gatlinburg and Pigeon Forge, 
grew by 39 percent, making it the state's third fastest-growing county. 
Within the county some of the most rapid growth is occurring between 
the Foothills Parkway and the main body of the park in areas not 
currently served by natural gas, other than the single six-inch line 
along the Spur to Gatlinburg.
    The single greatest natural resource problem in Great Smoky 
Mountains National Park is declining air quality. Its vistas are 
reduced by particulate emissions. Ozone levels in the park's higher 
elevations reaches levels that pose a hazard to human health under 
Environmental Protection Agency standards. High elevation streams and 
soils are becoming increasingly acidified by airborne acid deposition 
which is threatening plants, wildlife and aquatic systems. A large 
proportion of this pollution is produced by coal-generated electrical 
power plants. Significant progress is being made to reduce emissions 
from power generation, and that progress could be aided by the use of 
natural gas. The authority provided by H.R. 3380 would enable greater 
usage of natural gas.
    The need for an authorization for existing natural gas pipelines 
stems from the developments that led to current National Park Service 
management of the Foothills Parkway Spur. The Foothills Parkway Spur 
was built by the Federal government in the 1950's on land acquired by 
the State of Tennessee and donated to the Federal government. In 1963, 
an agreement was signed between the National Park Service and the State 
of Tennessee that called for the Spur to be transferred back to the 
State after the Federal government built the Gatlinburg Bypass on other 
lands donated by the State. Subsequent to the 1963 agreement, the 
National Park Service allowed construction of a six-inch natural gas 
main down the Spur which still provides the only gas service to 
Gatlinburg.
    At that time, the National Park Service's only concern was to 
ensure that the line's installation was acceptable to the State of 
Tennessee as the land's future owner. Although the Gatlinburg Bypass 
was completed in 1968, the State has declined, for a variety of 
reasons, to accept the Spur back into State ownership, leaving the 
National Park Service with a pipeline it has no current authority to 
permit. This legislation will allow for the continued operation and 
maintenance of this line.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Smith. Any other questions 
from anybody? All right. Thank you very much for being here. 
Mr. Jenkins, any comments?
    Mr. Jenkins. No, thank you, Mr. Chairman.
    Mr. Radanovich. All right. This ends this hearing. Mr. 
Smith.
    Mr. Smith. Mr. Chairman, I apologize. From the prior bill, 
could I, for the National Capital Planning Commission put into 
the record their letter also with their concerns on H.R. 2982, 
because they will be a major partner as we work with the 
Committee and the Congress to work on that bill.
    Mr. Radanovich. Certainly. Thank you for bringing it up. 
There being no objection, so ordered.
    Mr. Radanovich. If that is all there is, that is the 
business of this Subcommittee. It is finished. Thank you very 
much.
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]

    [The letter from John V. Cogbill III, Chairman, National 
Capital Planning Commission, submitted for the record follows:]
[GRAPHIC] [TIFF OMITTED] 78261.002

[GRAPHIC] [TIFF OMITTED] 78261.003

                                   - 

</pre></body></html>
